               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2012
OFFICE OF
INSPECTOR GENERAL




                                             Inspector General


                                                  Deputy
                      Office of
                                             Inspector General                      Office of Counsel
                    Administration




                         Office of Audit                                         Office of
                         and Evaluation                                       Investigations




Oversight Areas                                         OIG Main Number
Office of the Secretary                                 Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.4661
Bureau of Economic Analysis
                                                        OIG Hotline
Bureau of Industry and Security
                                                        Telephone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.2495
U.S. Census Bureau                                                                                                             or 800.424.5197
Economic Development Administration
Economics and Statistics Administration                 TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
International Trade Administration                                                                                                  or 800.854.8407
Minority Business Development Agency
                                                        E-mail. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .hotline@oig.doc.gov
National Institute of Standards and Technology
National Oceanic and Atmospheric Administration
                                                        More Information
National Technical Information Service                  Visit www.oig.doc.gov to learn more about our activities,
National Telecommunications and                         download reports and testimony, and subscribe to
   Information Administration                           our RSS feed for website updates. E-mail website
United States Patent and Trademark Office               comments to oigweb@oig.doc.gov.
               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2012
4                  Office of Inspector General | Semiannual Report to Congress | March 2012




    TABLE OF 

    CONTENTS




    01   FROM THE INSPECTOR GENERAL
    06   TOP MANAGEMENT CHALLENGES FACING THE DEPARTMENT
    12   WORK IN PROGRESS
    16   OVERSIGHT AREAS

    16 DEPARTMENT-WIDE MANAGEMENT

    24 ECONOMICS AND STATISTICS ADMINISTRATION

    26 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    30 NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

    32 UNITED STATES PATENT AND TRADEMARK OFFICE

    36 AMERICAN RECOVERY AND REINVESTMENT ACT
       NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
       NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

    42 STATISTICAL DATA
    52 REPORTING REQUIREMENTS
    54 ACRONYMS AND ABBREVIATIONS
                                                                                        5




FROM THE
INSPECTOR GENERAL


I am pleased to present the Department of Commerce Office of Inspector General’s
Semiannual Report to Congress for the 6 months ending March 31, 2012.

This report summarizes work we initiated and completed during this semiannual
period on a number of critical departmental activities. Over the past 6 months, our
office issued 19 audit and evaluation reports addressing programs overseen by the
National Institute of Standards and Technology, National Oceanic and Atmospheric
Administration, National Telecommunications and Information Administration, United
States Patent and Trademark Office, and the Department itself.

Looking ahead, we will continue to prioritize our work consistent with the Top
Management Challenges Facing the Department report we issued in October
2011. For fiscal year 2012, we identified two new cross-cutting goals that focus
on the President’s initiatives for economic recovery and job creation: (1) promote
exports, stimulate economic growth, and create jobs and (2) reduce costs and
improve operations to optimize resources in a period of constrained budgets. The
remaining three challenges are long-standing departmental concerns: information
technology security, acquisitions and contracting, and NOAA’s satellite program. We
will work closely with the Department and with Congress in the months ahead to
meet these and other challenges facing Commerce as it fulfills its complex mission.

We welcome Secretary Bryson to the Department and look forward to a productive
and collaborative association with him. We also thank senior officials throughout the
Department and members of Congress and their staffs for their support of our work
during this reporting period and for their receptiveness to our recommendations for
improving Commerce operations.




TODD J. ZINSER

6   Office of Inspector General | Semiannual Report to Congress | March 2012




    TOP MANAGEMENT
    CHALLENGES FACING
    THE DEPARTMENT

    The Reports Consolidation Act of 2000 requires inspectors general to
    identify the top management challenges facing their departments. In
    October 2011, the Department of Commerce OIG identified five challenges
    that require significant departmental attention in FY 2012 and beyond. OIG
    will issue updates to these challenges in a separate June 2012 publication.


    1. EFFECTIVELY PROMOTE EXPORTS, STIMULATE ECONOMIC GROWTH,
       AND CREATE JOBS

    The Department is at the center of the federal government’s efforts to promote exports and stimulate
    economic development while regulating imports and exports, marine fisheries, and patents and
    trademarks. Effective implementation of these initiatives requires the Secretary to work closely with
    interagency partners and integrate Department resources in order to:

    Implement Administration Initiatives with Effective Interagency Partnerships.
    More than 20 federal agencies perform trade-related functions. The Department plays a critical
    role in working with these partners to implement the administration’s three government-wide
    initiatives: promote U.S. exports, reform the export control system, and reorganize the federal
    government’s trade promotion responsibilities. The Department reported that, as of August
    2011, the joint efforts by Export Promotion Cabinet agencies have resulted in a 17 percent
    increase in exports since 2009. However, ongoing management attention will be necessary to
    promote continued progress in these areas.

    Enhance Commerce Unit Operations to Help Promote Trade and Job Creation.
    Various bureaus within the Department engage in trade-related functions. The Department
    began improving coordination among these units by launching “CommerceConnect” in
    2009—a website providing a portfolio of government assistance to businesses. The Department
    continues facing challenges:


    •	   repatriating manufacturing jobs in America;
    •	   allocating resources to support the President’s National Export Initiative;
    •	   reducing patent backlog, improving processing times, and implementing patent reform;
    •	   improving technical and financial assistance to promote domestic job growth; and
    •	   ensuring the elimination of social and economic surveys does not adversely affect vital
         national indicators.

    Correct Unfair Trade Practices and Protect Our National Security Through
    Enforcement Activities.
    While trade promotion is an essential part of its mission, the Department must also maintain
    strong trade enforcement programs, so that the United States can thrive in the global
    marketplace. Among the bureaus, BIS faces the greatest challenge as it helps to implement the
    long-term goals of the Export Control Reform initiatives.
                                                            Top Management Challenges Facing the Department   7




Improve Regulatory Reviews to Protect and Promote Public Interests.
In addition to imports and exports, the Department is also responsible for regulating marine
fisheries (to protect ocean resources) and patents and trademarks (to protect intellectual
property). The Department should conduct adequate cost–benefit analyses and identify
meaningful performance measures for regulatory activities to avoid overburdening affected
industries. This is especially important for balancing NOAA’s goals of protecting the environment
and supporting the fishing industry.

2. REDUCE COSTS AND IMPROVE OPERATIONS TO OPTIMIZE RESOURCES FOR A
   DECADE OF CONSTRAINED BUDGETS

As the government prepares for an extended period of tighter budgets and decreased spending,
it is most important to target waste, reduce inefficiency, and ensure that taxpayers’ dollars
are spent wisely. It will be difficult, but possible, to leverage savings to support investments in
economic growth. Agencies should:

Implement and Expand Initiatives to Improve Operational Efficiency and Economy.
The Department has an initiative in place to save $143 million in administrative costs in
FYs 2011 and 2012. About 60 percent of the target savings would derive from reduction
in facilities, information technology (IT), and workforce. The remaining 40 percent would
derive from more strategic sourcing and reducing the use of high-risk acquisition contracts.
Relentless management attention and oversight of reported savings are critical to achieving the
Department’s goal.

Strengthen Oversight of Improper Payments for Additional Recoveries.
The Department can increase efforts to implement the Improper Payments Elimination and
Recovery Act of 2010—and maximize the dollars it recovers from improper payments. Adjusting
payment testing practices and focusing on highest risk programs are key.

Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees.
In June 2011, the Department reported about $10 billion accumulative outstanding obligations,
more than half of which were for grants. The diversity and duration of the Department’s
grant programs further highlight the need to examine ways to standardize and streamline its
management processes, such as consolidation of the Department’s three separate grants
management systems and better use of OIG and single audit reports to detect emerging issues.

With $4 billion in funding, the Broadband Technology Opportunities Program (BTOP)
represents a significant investment of Recovery Act funds to develop and deploy broadband
services nationwide. The success of BTOP depends on the coordinated efforts of NTIA and
its grant management partners, NOAA and NIST. However, the uncertain funding for BTOP
oversight in FY 2013 and beyond (i.e., to oversee the closeout of projects and the completion
of projects that receive extensions) raises concerns about NTIA’s ability to adequately oversee
the program’s future.

Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to
Avoid Cost Overruns.
Given projections of increasing life-cycle cost estimates to $22–30 billion, Census has to
fundamentally change the design, implementation, and management of the 2020 decennial
census. The decade’s early years are critical for deciding on a design and implementing
changes to decennial operations. With funding constraints likely, the bureau needs to prioritize
its research and testing to determine the feasibility, cost, and data-quality impacts of proposed
census design changes.
8   Office of Inspector General | Semiannual Report to Congress | March 2012




    3. STRENGTHEN DEPARTMENT-WIDE INFORMATION SECURITY TO PROTECT
       CRITICAL INFORMATION SYSTEMS AND DATA

    In recent years, the federal government—and the Department in particular—have increasingly
    taken advantage of Internet-based technologies to interconnect IT systems and conduct
    business with the public. As this trend continues, cyberattacks on Internet commerce, vital
    business sectors, and government agencies have grown exponentially. To address such threats,
    the Department plays a leading role in developing public policies and private-sector standards
    and practices. But the Department’s own IT systems are constantly exposed to increasingly
    numerous and sophisticated cyberattacks. We have recommended that the Department:

    Continue Working to Improve IT Security by Addressing Ongoing Security
    Weaknesses.
    For our FY 2010 Federal Information Security Management Act of 2002 report to the
    Department, we evaluated 18 Department IT systems and concluded that the Department’s
    information security program and practices have not adequately secured Department systems.
    In response to our recommendations, the Department developed an action plan to address the
    security weaknesses we identified—and, in the past year, the Department has taken several
    steps toward improving IT security. However, until the Department successfully implements the
    items in its action plan, we can expect to find recurring security weaknesses. Our FY 2012 work
    continues to find significant security weaknesses in Department and contractor systems that put
    the systems at risk of cyberattack.

    Implement Security Policy Effectively Through Consistent, Proactive Management.
    Our audits reaffirm the need for increased senior management attention to ensure security policy
    and practices are applied consistently and effectively across the Department. For example, we
    reviewed a sample of FY 2010 and FY 2011 performance plans for individuals holding critical
    IT security roles—and found that requirements for these roles are not consistently incorporated
    in some of the performance plans. Additional cyberinfrastructure challenges the Department
    faces include securing hundreds of Internet connection points on Departmental networks and
    establishing enterprise monitoring capability and a cybersecurity center.

    4. MANAGE ACQUISITION AND CONTRACT OPERATIONS MORE EFFECTIVELY TO
       OBTAIN QUALITY GOODS AND SERVICES IN A MANNER MOST BENEFICIAL TO
       TAXPAYERS

    In FY 2010, the Department obligated nearly $4 billion through more than 26,000 contract
    actions to acquire a wide range of goods and services to support mission-critical programs.
    While the Department has made some progress in this important area, it should continue to:

    Develop and Retain a Qualified Acquisition Workforce.
    Recruitment, training, and retention pose risks to the Department’s ability to meet its increasing
    acquisition workload. In FY 2010, the Department experienced a 15 percent attrition rate
    among contracting officers. Further, between FYs 2009 and 2019, 54 percent of the senior-
    level acquisition employees in the Department will be eligible to retire. The Department lacks a
    sufficient pipeline of entry- to mid-level professionals to sustain operations during the projected
    retirement wave.
                                                          Top Management Challenges Facing the Department   9




Ensure High Ethical Standards in the Acquisition Workforce and in Procurement
Practices.
Government contracting is risky by nature. Department employees in contract-related positions
represent the front line of defense by promptly recognizing and reporting ethics violations
and fraud indicators. The Department needs to take actions to prevent recurrence of OIG
investigative findings—questionable sole sourcing practices against advice of counsel, steering
contracts to acquaintances, splitting purchase card transactions to circumvent spending limits,
and improper communications with unsuccessful contract bidders. The Department also needs
to strengthen its suspension and debarment program, which would help to ensure it awards
contracts and grants only to responsible parties. The Department’s current suspending and
debarring official has begun to develop the processes and policies that form the foundation of
a successful suspension and debarment program. Despite this recent progress, creating an
efficient and durable program remains a challenge.

Strengthen Processes to Govern the Appropriate Use of High-Risk Contracts and to
Maximize Competition.
High-risk contracts—including contracts awarded noncompetitively or in which only one
bid was received, cost-reimbursement contracts, and time-and-materials and labor-hour
contracts—comprised almost 40 percent of the total value of new contract awards in FY 2010.
The Department needs to reduce high-risk contract awards and exercise strong oversight of
performance-based contracts such as cost-plus-award-fee. Although designed to motivate
excellence in contractor performance, without strong oversight, performance-based contracts
can represent an additional risk to the Department.

Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve
Oversight and Tracking of Contract Savings.
The Office of Management and Budget (OMB) requires agencies to focus on cutting contract
costs by using smarter buying practices. The Department has taken steps to improve its
monitoring and verification of the cost savings reported by the bureaus’ procurement offices.
While these efforts to improve reporting represent real progress, continued attention will be
needed to meet the level of accountability called for by OMB.

Deliver Cost Savings and Efficiency on Major IT Investments.
The Department spends about 25 percent of its annual budget on IT investments—one of the
highest percentages among federal agencies. Accordingly, the Department must watch for
any opportunity to save money, improve efficiency, and prevent setbacks to these important
investments. For instance, the Department reported serious cost and schedule problems
concerning four NOAA IT investment projects, totaling $265 million. In addition, we have
identified challenges and offered recommendations to improve USPTO’s Patent End-to-End
acquisition initiative with an estimated cost of $130 million.
10   Office of Inspector General | Semiannual Report to Congress | March 2012




     5. MANAGE THE DEVELOPMENT AND ACQUISITION OF NOAA’S ENVIRONMENTAL
        SATELLITE SYSTEMS TO AVOID LAUNCH DELAYS AND COVERAGE GAPS

     NOAA’s environmental satellite operations and weather forecasting are designated primary
     mission-essential functions of the Department of Commerce. But NOAA’s current constellation
     of polar and geostationary operational environmental satellites is aging, and its capabilities will
     degrade over time. As a result, the risk of gaps in critical satellite data is increasing. In February
     2010, the White House directed NOAA, in partnership with NASA, to establish the Joint Polar
     Satellite System (JPSS) program—after experiencing significant cost overruns and schedule
     delays with an earlier joint development effort among NOAA, NASA, and the Department of
     Defense. Given their histories, these critical satellite programs require strong management and
     close oversight to:

     Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP.
     Since the first JPSS satellite (JPSS-1) is not scheduled for launch until 2017, NOAA will
     use an interim satellite—the Suomi National Polar-orbiting Partnership (NPP), launched in
     October 2011, to bridge the gap between JPSS-1 and its current polar-orbiting operational
     environmental satellite (NOAA-19). NOAA projects NPP will reach operational readiness 18 to
     24 months after launch because of delays in completing activities to provide data for operational
     use. This extension could lead to a coverage gap in some data if NOAA-19 (or other satellite
     data sources) stops functioning at the end of its design life—approximately March 2013. NOAA
     needs to take effective steps to reduce the risk of such a data gap.

     Ensure Solid Program Management and Systems Engineering Principles Are Applied
     to Mitigate the Coverage Gap Between NPP and JPSS-1.
     Due to program and funding issues, NOAA expects a gap in weather and climate observations
     between NPP and JPSS-1. We project the gap could range from 9 to 21 months, or even
     longer, if NPP experiences a shorter-than-expected life. NOAA studies have found that its
     weather forecasting at 5, 4, and 3 days before an event could be significantly degraded during
     the coverage gap period. NOAA—in coordination with its line officers and in concert with
     Departmental and congressional decision-makers—must minimize the potential impact of this gap.

     Maintain Robust Program Management and Systems Engineering Disciplines to
     Prevent Geostationary Coverage Gaps.
     NOAA relies on another satellite system—the Geostationary Operational Environmental
     Satellite-R Series (GOES-R)—for uninterrupted short-range severe weather warning. This
     development program also experienced problems of cost changes and reduced capabilities.
     According to March 2012 program documentation, the GOES-R program’s overall schedule
     and technical development remain on track; however, the ground project’s development is being
     modified to control costs. The program is also revising the ground segment’s schedule to allow
     more flexibility. In light of these developments, NOAA needs to control costs, keep schedules on
     track, and maintain required technical performance.
11
12        Office of Inspector General | Semiannual Report to Congress | March 2012




          WORK IN
          PROGRESS


          WORK IN PROGRESS (BY OVERSIGHT AREA)

          During this reporting period, 23 OIG audits and evaluations were initiated or under way.




                     7

                                      5
                                                4

                                                               2               2
                                                                                             1             1              1
                     e




                                                A




                                                                              TO




                                                                                           A




                                                                                                          A




                                                                                                                        A
                                   ct a




                                                              A b
                   id




                                                                                                        IT
                                                                                          D




                                                                                                                       TI
                                              A




                                                                          SP




                                                                                         E
                 W




                                             O




                                                                                                                      N
                                                            ES
                                  A




                                            N
               t-




                                                                          U
                               y
              en




                              er
         tm




                             ov
         ar




                          ec
     ep




                         R
     D




          a   Of these five Recovery Act–related works in progress, three concern NTIA, one concerns NIST, and one concerns
              lessons learned across all Department bureaus receiving Recovery Act funds.

          b   Both ESA works in progress concern the Census Bureau.




          DEPARTMENT-WIDE

          FY 2012 Financial Statement Audits
          Determine whether the financial statements are presented fairly, in all material respects, in
          accordance with generally accepted accounting principles (an independent accounting firm
          will perform these audits, under OIG oversight, in accordance with generally accepted auditing
          standards, Government Auditing Standards, and OMB requirements).

          Preview of FY 2013 Top Management Challenges
          Inform the Department, in advance, of the most significant upcoming management and
          performance challenges facing the Department in FY 2013.

          FY 2013 Top Management Challenges
          From an oversight perspective, identify the most significant management and performance
          issues facing the Department in the upcoming fiscal year, as required by law.
                                                                                       Work In Progress   13




IT Security
Assess the effectiveness of the Department’s IT security program by determining whether key
security measures adequately protect the Department’s systems and its information, as required
by the Federal Information Security Management Act of 2002.

Purchase Card Controls
Determine whether the Department has adequate transaction-level internal controls over
purchase card transactions by reviewing a sample of transactions from all bureaus during FY
2011. During FY 2011, the Department had more than 4,500 purchase cards that processed
approximately $118.6 million in purchase card transactions.

Time-and-Materials and Labor-Hour (T&M/LH) Contracts
Assess whether the Department properly awards and administers these contracts. For FY 2011,
Commerce awarded 2,893 high-risk T&M/LH contract actions for $586 million. Both contract
types provide for payment to contractors on the basis of fixed hourly billing rates, designed to
recover the contractors’ direct salaries, overhead, general and administrative expenses, and
profit. T&M contracts also provide for reimbursement of the contractors’ actual costs of supplies
and materials.

Unliquidated Obligations
Evaluate controls over the management and closeout of unused or unneeded (unliquidated)
obligations. It is essential that the Department perform timely reviews of contract, grant, and
other unliquidated obligations and deobligate funds no longer needed. This could result in
funding available for other purposes.

ECONOMIC DEVELOPMENT ADMINISTRATION

Review of Trade Adjustment Assistance Center (TAAC) Administrative Costs
Provide the House Committee on Appropriations with information on the reasonableness of
administrative costs charged by the TAACs as part of the Trade Adjustment Assistance for
Firms program administered by EDA—as requested in the report accompanying the FY 2012
Commerce, Justice, Science, and Related Agencies Appropriations Bill.

ECONOMICS AND STATISTICS ADMINISTRATION

2020 Census Planning
Evaluate the Bureau’s efforts to improve the 2020 Census design, focusing on how the results
of the Bureau’s evaluation plans will inform the new decennial design, as well as evaluate
and monitor the implementation of Census’s management initiatives designed to enhance
organizational change.

Map and Address Database
Review Census’s progress toward achieving the objectives of its $496 million 2010 geographic
initiative (2010 MAF/TIGER Enhancement Program); evaluate the impact of various address-
updating operations on the address file and map database and identify trends that introduced
error; and review Census’s procedures for updating the map and address files.
14   Office of Inspector General | Semiannual Report to Congress | March 2012




     INTERNATIONAL TRADE ADMINISTRATION

     Review of U.S. Export Assistance Centers (USEAC)
     Determine the extent to which the level of coordination between the U.S. and Foreign
     Commercial Service’s (CS) and other federal government agencies is sufficient to meet the
     President’s priorities with respect to the National Export Initiative, evaluate whether the allocation
     of domestic resources meets its mission and goals, and assess CS’s level of cost recovery for its
     products and services.

     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

     Fishery Management Councils (FMCs) and Rulemaking
     Review controls, processes, and operational best practices used by NOAA FMCs to develop
     rules for the industry. Evaluate the role of NOAA and the FMCs in the fishery rulemaking process
     and the transparency of the rulemaking process prescribed under the Magnuson-Stevens
     Fishery Conservation and Management Act.

     Geostationary Operational Environmental Satellite-R Series (GOES-R) Acquisition
     and Development
     Assess the adequacy of contract management and administration and the effectiveness of
     management’s direction, monitoring, and collaboration for development of select components in
     the GOES-R program.

     Joint Polar Satellite System (JPSS) Program Baseline Adequacy
     Assess JPSS formulation activities—including development of requirements, schedule, and cost
     baselines—against NASA standards, government/industry best practices, and individual project-
     level plans. Monitor the program’s efforts to maintain (1) near-term continuity of polar satellite
     data as Suomi National Polar-orbiting Partnership (NPP) on-orbit operations transition to NOAA
     and (2) continuity of data after NPP end-of-life.

     Management of Cost-Plus-Award-Fee and Award-Term Contracts
     Determine whether (1) NOAA’s decisions related to award-fee and award-term ratings are
     properly supported and (2) NOAA effectively monitors award-fee and award-term plans and
     contractor performance.

     NATIONAL TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION

     Public Safety Interoperable Communications (PSIC) Grant Program Costs
     and Equipment
     Determine whether (1) costs incurred by grantees receiving PSIC funds from the Department
     are allowable and in accordance with grant requirements; (2) grantees are meeting matching
     share requirements; (3) equipment acquired by the grantees has been tested and certified prior
     to deployment, operates effectively, and improves interoperability in the state; and (4) grantees
     are on schedule to complete interoperable communications investments by September 30,
     2011, or—with an approved extension—by September 30, 2012.
                                                                                     Work In Progress   15




UNITED STATES PATENT AND TRADEMARK OFFICE

Efforts to Reduce Board of Patent Appeals and Interferences (BPAI) Backlog
and Pendency
Determine (1) whether BPAI’s staffing and resources have changed in relation to changes in
its caseload and (2) to what extent implementation of the America Invests Act will affect BPAI
operations and resources.

FY 2012 Financial Statement Audits
Determine whether the financial statements are presented fairly, in all material respects, in
accordance with generally accepted accounting principles. An independent accounting firm
will perform these audits, under OIG oversight, in accordance with generally accepted auditing
standards, Government Auditing Standards, and OMB requirements.

AMERICAN RECOVERY AND REINVESTMENT ACT

NIST’s Oversight of Recovery Act Construction Contracts
Audit of $176 million in Recovery Act contract funds awarded for the construction and
renovation of research facilities on NIST locations. Determine whether NIST’s (1) policies and
procedures were sufficient for evaluation of cost, specifications, and performance results; (2)
contract award and administrative practices complied with applicable laws and regulations,
including specific Recovery Act requirements; and (3) acquisition staff communicated problems
with the projects to NIST management.

NTIA’s Processes for Broadband Technology Opportunities Program (BTOP)
Grantees’ Matching Share
Determine whether NTIA has adequate processes in place to ensure that BTOP grantees’
matching shares of approximately $1.4 billion (1) come from nonfederal funds and (2) meet both
administrative requirements and the terms and conditions of the individual awards (a sample of
25 NTIA BTOP grantees was selected to determine reasonableness, allowability, and allocability
of grantee match).

BTOP Subrecipient Monitoring
Assess whether all subrecipients have been identified and properly classified and determine
whether adequate controls are in place to ensure effective subrecipient monitoring and
compliance with award terms and conditions.

Management and Oversight of the Booz Allen Hamilton BTOP Contract
Determine (1) how NTIA ensures the receipt and quality of the goods and services it pays for;
(2) what specific controls exist to verify invoices and payment processes; and (3) how NTIA
mitigates risks associated with time-and-materials contracts and task orders.

Recovery Act Lessons Learned
As part of a federal government-wide Recovery Accountability and Transparency Board
initiative, identify actions, mechanisms, and processes federal agencies used that were effective
for implementing and administering Recovery Act programs—as well as those that were
obstacles to successful Recovery Act programs (particularly relating to the overarching goals of
transparency and accountability).
16   Office of Inspector General | Semiannual Report to Congress | March 2012




     DEPARTMENT-WIDE MANAGEMENT




     The U.S. Department of Commerce works to help American
     companies become more innovative and successful at home and more
     competitive abroad. It creates the conditions for economic growth and
     opportunity by promoting innovation, entrepreneurship, competitiveness,
     and stewardship.

     The Department accomplishes its mission by providing national and
     local weather services; developing key economic and demographic data
     (including the decennial census); advancing technological and scientific
     innovation; protecting and restoring environmental resources; promoting
     international trade; and supporting local, regional, and national economic
     development. These activities affect U.S. business and industry daily and
     play a critical role in the nation’s economic well-being.
                                                                                          Department-Wide Management   17




COMPLETED WORKS (BY OVERSIGHT AREA)

During this reporting period, OIG completed 19 audits and evaluations and 2 congressional
testimonies.




            10




                                   4
                                                          3                       3

                                                                                                         1

      Department-Wide                        a          NOAA                   USPTO                   NTIA
                              Recovery Act


a   Of these four Recovery Act-related works in progress, two concerned NTIA; one concerned NIST; and one was IG 

    testimony to the House Committee on Science, Space, and Technology.





COMMERCE’S OFFICE OF ACQUISITION MANAGEMENT MUST CONTINUE TO
IMPROVE ITS ONGOING OVERSIGHT OF ACQUISITION SAVINGS INITIATIVES
(OIG-12-001-A)

In March 2009, the President directed federal agencies to take immediate steps to achieve real,
sustainable improvements in contract processes. In November 2009, the Department submitted
an acquisition savings improvement plan to the Office of Management and Budget (OMB).
The Department’s Office of Acquisition Management (OAM) assumed oversight of the plan’s
implementation—which entailed reducing contract spending costs by about $39.5 million per
year in FYs 2010 and 2011 and decreasing the use of new high-risk contracts.

While the Department has achieved some savings in its plan to improve contracts and
acquisition practices, implementation problems and oversight challenges have limited the
Department’s ability to produce desired results. Specifically, we found that (1) baseline costs
were unsupportable and inaccurate, (2) the amount of cost savings was uncertain, and (3)
while the percentage of high-risk contracts decreased in FY 2010, the dollar value of high-
risk contracts increased from 2008 to 2010. Since June 2010, the Department has improved
its acquisition savings oversight, documentation requirements, and validation processes. A
new director of acquisition management—hired in February 2011—has further overhauled
the review, validation, and reporting processes to ensure that savings are properly measured,
verified, and documented.
18                            Office of Inspector General | Semiannual Report to Congress | March 2012




                              We recommended that the director of acquisition management (1) implement adequate controls
                              to ensure that future acquisition savings baselines and targets are established, as required by
                              OMB; (2) prescribe minimum documentation standards required from the bureaus’ procurement
                              offices to support claimed savings resulting from implementing initiatives for reducing contract
                              spending and high-risk contracts; and (3) establish a process to verify the accuracy and
                              reliability of data collected by the procurement offices and track ongoing and future initiatives
                              with a primary objective of determining whether savings are actually realized.

                              IMPROVEMENTS ARE NEEDED FOR EFFECTIVE WEB SECURITY MANAGEMENT
                              (OIG-12-002-A)

                              Our assessment of the Department’s web applications identified significant vulnerabilities
                              resulting from inadequate software development practices, improper software configuration,
                              and failure to install system updates in a timely manner. We found critical vulnerabilities in 12
                              of 15 (or 80 percent of) web applications we reviewed. The majority of web applications have
                              well-known website vulnerabilities, misconfigured back-end databases, and outdated software
                              that support them. Combined, these security weaknesses put both web applications and users’
                              computers at greater risk of compromise, resulting in the potential disruption of services or
                              unauthorized disclosure of sensitive information.

                              We recommended that the Department’s Chief Information Officer work with bureau senior
                              management to (1) ensure that bureaus take corrective action to mitigate vulnerabilities we
                              found during our vulnerability scan assessments; (2) expand the Department’s vulnerability
                              scanning practice to include application-level assessments, such as database and website
                              scans; and (3) utilize security best practices for publicly accessible web applications, such as
                              users’ input validation, to ensure that only legitimate information is accepted, as contained in
                              NIST’s published guidelines.

                              FY 2011 FISMA AUDIT: MORE WORK NEEDED TO STRENGTHEN IT SECURITY
                              DEPARTMENT-WIDE (OIG-12-007-A)

                              The Department’s 280 information technology systems process, store, and transmit census,
                              economic, trade, satellite, and weather data, among others, in support of its varied missions. Our
                              FY 2011 audit assessed the security of 10 information systems selected from three Department
                              bureaus: 5 from NOAA, 3 from USPTO, and 2 from the Census Bureau.

                                                                            We identified deficiencies in fundamental aspects of security
Federal Information Security Management Act                                 planning and significant security control weaknesses.
                                                                            Overall, the entire Department needs to manage information
of 2002 (Title III, P.L. 107-347)                                           security with greater rigor and consistency.

Information security program, evaluation, and reporting
                                                                            To make the Department’s information security program
requirements for federal agencies were established by the
                                                                            and practices more effective, the Department should (1)
Federal Information Security Management Act of 2002
                                                                            complete actions planned in response to our FY 2010
(FISMA). FISMA requires agencies to secure their information
                                                                            FISMA audit recommendations, as quickly as possible; (2)
systems through the use of cost-effective management,
                                                                            develop a security planning checklist, or other planning tool,
operational, and technical controls. FISMA also requires
                                                                            to help system owners and authorizing officials complete
inspectors general to evaluate agencies’ information security
                                                                            and maintain comprehensive security plans; and (3)
programs and practices by assessing a representative subset
                                                                            determine the feasibility of independent reviews at key steps
of agency systems and to report the results to OMB and
                                                                            in the risk management framework to ensure greater rigor
Congress annually.
                                                                            and consistency in the security authorization process within
                                                                            the Department’s various bureaus. Consideration should be
                                                                             Department-Wide Management   19




given to creating independent review teams with representatives from different bureaus to share
best practices and promote consistent application of Department policy and NIST guidance.

FY 2011 CONSOLIDATED FINANCIAL STATEMENT AUDITS (OIG-12-004-A, OIG-12­
009-A, OIG-12-010-A)

Independent auditor KPMG LLP found that the Department’s consolidated financial statements
were fairly presented in all material respects and in conformity with U.S. generally accepted
accounting principles. KPMG found no instances of reportable noncompliance with applicable
laws, regulations, contracts, and grant agreements and no instances in which the Department’s
financial management systems did not substantially comply with the requirements of the Federal
Financial Management Improvement Act of 1996.

KPMG identified one significant deficiency in internal control over financial reporting related
to NOAA’s accounting for satellite construction costs. (A significant deficiency in internal
control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect
and correct misstatements on a timely basis, and merits attention by those charged with
governance.) It found that NOAA needs to make improvements in the effective accounting for
satellite construction costs and in monitoring of significant events and transactions related
to its satellite programs, to ensure that only capitalizable costs are included in construction
work in progress (CWIP) and that the balances of satellites, including related CWIP, are fairly
stated. The Department concurred that improvements and enhancements can be made in
its accounting for satellite costs. The Department has developed corrective action plans to
address KPMG’s recommendations.

During the audit, KPMG also assessed the information technology controls supporting financial
management systems. While KPMG noted significant positive steps taken to implement and
maintain effective information security practices, the Department needs to make improvements
in the areas of security management, access controls, configuration management, and
contingency planning. However, these matters were not considered a significant deficiency. The
Department agreed with these findings and has developed corrective actions plans to address
KPMG’s recommendations.

KPMG also audited the Department’s special-purpose financial statements and determined
its compliance with financial reporting requirements in the Treasury Financial Manual. These
statements are used to assist in preparing the Financial Report of the U.S. Government.
In its unqualified opinion on these statements, KPMG reported no material weaknesses in
internal control and no instances of noncompliance. (A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.)

FURTHER ACTIONS NEEDED TO ENHANCE COMMERCE’S ACQUISITION HUMAN
CAPITAL PLAN (OIG-12-015-A)

The Department’s 5-year Acquisition Human Capital Plan (AHCP) for FYs 2010–2014,
submitted to OMB in March 2010, discusses its challenges and the steps it has taken and
plans to take to strengthen its workforce. While acknowledging the Office of Acquisition
Management’s (OAM’s) challenges in developing this plan while experiencing turnover in its
leadership, we found the plan lacks three critical program elements: (1) reconciled baseline
staffing data identifying the agency’s entire acquisition workforce; (2) sufficient methodologies
20                            Office of Inspector General | Semiannual Report to Congress | March 2012




                                                                                   for determining the size and composition of the
Duncan Hunter National Defense Authorization                                       future acquisition workforce; and (3) time frames
                                                                                   and milestones for action strategies. We also found
Act for FY 2009 (P.L. 110-417)                                                     that the requests for additional full-time equivalent
                                                                                   staff identified in the plan did not match individual
Congress included provisions in the Duncan Hunter National                         bureaus’ FY 2012 budget submissions.
Defense Authorization Act for FY 2009 (the Act) to help agencies
develop plans to increase the size of their acquisition workforce.
                                                                                   We recommended that the director of OAM: (1)
Enacted in 2008, the Act directed federal agencies other than the
                                                                                   establish formal guidance and procedures for
Department of Defense to develop a specific and actionable 5-year
                                                                                   determining baseline staffing levels; (2) prescribe
plan—an Acquisition Workforce Development Strategic Plan—to
                                                                                   minimum documentation standards required by the
increase the acquisition workforce size and operate a government-
                                                                                   bureaus’ procurement offices and OAM to support
wide acquisition intern program. It also outlined a number of other
                                                                                   facts and figures contained in subsequent AHCPs; (3)
plan requirements, such as the development of a sustainable funding
                                                                                   work with each bureau to establish acquisition human
model to support efforts to hire, retain, and train an appropriately
                                                                                   capital goals and measure progress toward meeting
sized and skilled acquisition workforce
                                                                                   those goals; and (4) work with the Office of Budget
                                                                                   to access Departmental acquisition workforce budget
                                                                                   data during the budget formulation process.

                              SINGLE AUDIT RESULTS FOR CALENDAR YEAR 2011 (OIG-12-021-M)

                              Nonfederal entities (states, local governments, tribes, colleges and universities, and nonprofit
                              organizations) that expend $500,000 or more in a year of federal awards are required by the
                              Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their federal
                              awards. The purpose of the Act is to set forth standards for obtaining consistency and uniformity
                              among federal agencies with the audit of nonfederal entities expending federal awards. OIG is
                              responsible for thoroughly reviewing the issued audit report and auditee responses, considering
                              carefully each finding and recommendation, and determining whether the recommendations can
                              and should be implemented. We conduct this review on an ongoing basis—and we intend to
                              present summary analyses on a semiannual basis.

                              For calendar year 2011, OIG reviewed 332 reports by recipients of grants from EDA, ITA,
                              MBDA, NIST, NOAA, NTIA, and multiple bureaus. On February 13, 2012, we provided these
                              bureaus with a detailed summary of our findings, which included $9.9 million in questioned costs
                              for EDA, NOAA, and NTIA programs. The February 13 memo contained an analysis of findings
                              identified in single audit reports, noted trends in the types of findings reported, and summarized
                              findings by Departmental program.

                              FY 2011 COMPLIANCE WITH IMPROPER PAYMENT REQUIREMENTS (OIG-12-022-I)

                              Our review focused on determining whether the Department’s improper payment reporting
                              in appendix F of its FY 2011 Performance and Accountability Report complied with the
                              Improper Payments Information Act of 2002 (IPIA), as amended by IPERA. We also evaluated
                              the accuracy and completeness of the Department’s reporting, as well as its performance in
                              reducing and recapturing improper payments. Overall, we found that the Department was in
                              compliance with IPIA requirements for FY 2011.

                              However, we determined that the Department could improve its improper payment implementation
                              strategy related to payments without sufficient documentation and payment recapture audits. We
                              recommended that the Department (1) expand the scope of its review of grants and contracts
                              to include those for which the period of performance ended and last payment was made, but
                                                                            Department-Wide Management                       21




for which the closeout process has not been completed and (2) research items identified in
payment recapture audits as lacking sufficient documentation, and report amounts in its annual
Performance and Accountability Report when unable to discern propriety of payment.

AUDITS OF COMMERCE FUND RECIPIENTS BY INDEPENDENT AUDITORS

In addition to undergoing OIG-performed
audits, certain recipients of Department            Improper Payments Elimination and Recovery Act of
of Commerce financial assistance are
                                                    2010 (IPERA) (P.L. 111-204)
periodically examined by state and local
government auditors and by independent
public accountants. OMB Circular A-133,             IPERA amended the Improper Payments Information Act of 2002 (P.L. 107­
Audits of States, Local Governments, and            300), by expanding on the previous requirements for identifying, estimating,
Non-Profit Organizations, sets forth audit          and reporting on programs and activities that were vulnerable to significant
requirements for most of these audits. For­         improper payments and broadening recovery requirements for overpayments.
profit organizations, including those that          (Improper payments are those made by the federal government in the wrong
receive Technology Innovation Program funds,        amount, to the wrong entity, or for the wrong reason.)
are audited in accordance with Government
Auditing Standards. In addition, organizations
that received Advanced Technology Program
(ATP) funds are audited in accordance with NIST Program-Specific Audit Guidelines for ATP
Cooperative Agreements, and organizations that received Broadband Technology Opportunities
Program funds are audited in accordance with the Program-Specific Audit Guidelines for the
Broadband Technology Opportunities Program, issued by the Department.

We examined 186 audit reports during this semiannual period to determine whether they
contained audit findings related to Departmental programs. For 136 of these reports, the
Department acts as an oversight agency and monitors the audited entity’s compliance with OMB
Circular A-133, Government Auditing Standards, or program-specific reporting requirements.
The other 50 reports cover entities for which other federal agencies have oversight responsibility.
We identified 11 reports with material findings related to the Department of Commerce.


 Report Category                   OMB A-133 Audits          Program-Specific            Total

                                                                  Audits


 Pending (October 1, 2011)                 19                        67                    86

 Received                                 107                        46                   153

 Examined                                 110                        76                   186

 Pending (March 31, 2012)                  16                        37                    53
22   Office of Inspector General | Semiannual Report to Congress | March 2012




     The following table shows a breakdown by bureau of approximately $392 million in Commerce
     funds audited.


      Agency                                                                                                    Funds


      Economic Development Administration                                                                  $ 49,326,727

      International Trade Administration                                                                         541,335

      National Institute of Standards and Technologya                                                      $71,333,776

      National Oceanic and Atmospheric Administration                                                        56,797,030

      National Telecommunications and Information Administrationb                                           127,163,963

      Multi-bureau                                                                                           86,587,638
      Total                                                                                               $391,750,469

     a Includes   $45,272,865 in program-specific audits. A-133 audits account for the remaining amount of $26,060,911.
     b Includes   $100,808,138 in program-specific audits. A-133 audits account for the remaining amount of $26,355,825.




     We identified a total of $609,669 in the federal share of questioned costs and $15,337 in
     funds to be put to better use. In most reports, the subject programs were not considered major
     programs; thus, the audits involved limited transaction and compliance testing against laws,
     regulations, and grant terms and conditions. The 11 reports with Commerce findings are listed in
     table 7-a on page 49.

     BODY ARMOR MANUFACTURER REACHES SETTLEMENT WITH UNITED STATES IN
     DEFECTIVE MERCHANDISE CASE

     In October 2011, Point Blank Solutions, Inc. (formerly DHB Industries, Inc.), Point Blank
     Body Armor, Inc., and Protective Apparel Corporation of America, Inc. (collectively, “Point
     Blank”) settled a civil false claims case for $1 million as the result of an investigation into the
     manufacture and sale of bulletproof vests containing Zylon®. This settlement was part of a
     larger U.S. Department of Justice (DOJ) investigation of the body armor industry’s use of Zylon®
     ballistic material in body armor. The companies manufactured and sold body armor comprised of
     Zylon® despite possessing information showing that the Zylon® materials degraded quickly over
     time and were not suitable for ballistic use. The Point Blank vests were purchased by the federal
     government and by various state, local, and tribal law enforcement agencies that were partially
     reimbursed by the United States under DOJ’s Bulletproof Vest Partnership Grant Program. This
     settlement was the result of a joint investigation involving DOJ and investigative units from nine
     federal departments and agencies, including our office.
                                                                            Department-Wide Management   23




ADDITIONAL MULTI-MILLION-DOLLAR GUILTY PLEAS IN PRICE-FIXING CASE

In the September 2011 Semiannual Report to Congress (page 9), we reported that six
companies agreed to plead guilty to numerous counts of violating the Sherman Antitrust Act
by conspiring to fix certain fees in the provision of freight forwarding services for air cargo
shipments from Europe to the United States between 2002 and 2007. In November 2011, four
companies—EGL Inc., Geologistics, Kuhne Nagel, and Panalpina—had their plea agreements
accepted by a federal judge. The four agreed to pay criminal fines totaling $26,986,969 and
special assessments totaling $4,400. In December 2011, two additional companies—BAX
Global and Schenker AG, Inc.—had their plea agreements accepted by a federal judge and
agreed to pay criminal fines totaling $23,281,441 and special assessments totaling $2,400.
All of these plea agreements were the result of an ongoing joint investigation into the freight
forwarding industry by DOJ’s Antitrust Division–National Criminal Enforcement Section, the FBI’s
Washington Field Office, and our office. These agreements have now been accepted by the court
and are finalized. Several other companies are in ongoing negotiations with the Antitrust Division.
24   Office of Inspector General | Semiannual Report to Congress | March 2012




     ECONOMICS AND STATISTICS
     ADMINISTRATION



     The Economics and Statistics Administration analyzes economic
     activity, formulates policy options, and produces a major share of the
     U.S. government’s economic and demographic statistics. The chief
     economist monitors and analyzes economic developments and directs
     studies that have a bearing on the formulation of economic policy. ESA
     has two principal organizational units:

     Census Bureau—Publishes a wide variety of statistical data about the
     nation’s people and economy, conducting approximately 200 annual
     surveys in addition to the decennial census of the U.S. population and
     the quinquennial census of industry.

     Bureau of Economic Analysis—Prepares, develops, and interprets
     national income and product accounts (summarized by the gross
     domestic product) as well as aggregate measures of international,
     regional, and state economic activity.
                                                                       Economics and Statistics Administration   25




FORMER BEA EMPLOYEE AND ACCOMPLICE SENTENCED

In October 2010, a BEA employee and two other individuals were indicted on 20 criminal counts,
including tax fraud, bank fraud, wire fraud, aggravated identity theft, and obstruction of justice. In
October 2011, the BEA employee was sentenced by a federal judge to a 44-month prison term and
8 months of probation and ordered to pay $253,978 in restitution and a $600 special assessment
fee. In November 2011, an accomplice was also ordered to pay $253,978 in restitution. These
sentences were the result of our investigation into allegations that the BEA employee was committing
fraud in the commission of his outside occupation as a private accountant. The BEA employee retired
from federal service, effective November 2010.

CENSUS EMPLOYEE CONVICTED OF ATTEMPTED MURDER AND ASSAULT

A Census employee was arrested by Montgomery County (Maryland) police in August 2011
for the attempted murder of the husband of another Census employee. In October 2011, the
employee was indicted by a Montgomery County grand jury on charges that included attempted
first-degree murder and assault and placed on indefinite unpaid suspension the next month.
OIG provided assistance, primarily in the form of computer forensics, at the request of the
Montgomery County Police Department. The employee’s trial began in March 2012, and a guilty
verdict was handed down on April 2. Sentencing is set for June.

GEORGIA MAN INDICTED FOR ASSAULT OF CENSUS ENUMERATOR

In January 2012, a Cook County (Georgia) grand jury indicted a Georgia man on misdemeanor
charges of battery and criminal trespass related to an alleged altercation between him and a
Census enumerator conducting a site visit during the 2010 decennial census. OIG assisted
the Cook County District Attorney’s Office in conducting an investigation of the incident after
local police investigators recused themselves from the matter. Our investigation substantiated
allegations that the man assaulted the enumerator with a knife, resulting in injury to the
enumerator, as well as damage to the enumerator’s vehicle. In January 2012, the man was
arrested for failing to appear in court to answer the indictment.

JOINT OIG–CENSUS LETTER ENLISTS LAW ENFORCEMENT PROFESSIONALS IN
PROSECUTION OF CENSUS EMPLOYEE ASSAULTS

During the 2010 decennial census, over 700 acts of violence against Census Bureau employees
were reported throughout the United States. Prompted by these statistics and our findings
that many of these incidents were not reported promptly or handled consistently by different
jurisdictions, the Inspector General and Census Bureau Director Robert M. Groves authored a
letter asking for “assistance in keeping our Census Bureau workers safe by aggressively pursuing
prosecution of violent crimes against them and their property.” The letter will be distributed to
police and sheriff’s departments across the country. A similar educational campaign is planned for
the Census Bureau itself to encourage better and more consistent reporting of acts of violence.
26   Office of Inspector General | Semiannual Report to Congress | March 2012




     NATIONAL OCEANIC AND
     ATMOSPHERIC ADMINISTRATION


     The National Oceanic and Atmospheric Administration mission
     is to understand and predict changes in Earth’s environment, as well as
     conserve and manage coastal and marine resources to meet our nation’s
     economic, social, and environmental needs. NOAA does this through six
     line offices.

     National Environmental Satellite, Data, and Information Service—
     Observes the environment by operating a national satellite system.

     National Marine Fisheries Service—Conducts a program of
     management, research, and services related to the protection and
     rational use of living marine resources.

     National Ocean Service—Provides products, services, and information
     to promote safe navigation, support coastal communities, sustain marine
     ecosystems, and mitigate coastal hazards.

     National Weather Service—Reports the weather of the United States
     and provides weather forecasts and warnings to the general public.

     Office of Oceanic and Atmospheric Research—Conducts research
     related to the oceans and Great Lakes, the lower and upper atmosphere,
     space environment, and the Earth.

     Office of Program Planning and Integration—Develops and
     coordinates NOAA’s strategic plan, supports organization-wide planning
     activities, guides managers and employees on program and performance
     management, and integrates policy analysis with decision making.
                                                               National Oceanic and Atmospheric Administration                    27




FOLLOW-UP REVIEW OF NOAA FISHERIES ENFORCEMENT PROGRAMS AND
OPERATIONS (OIG-12-017-I )

In response to our January 2010 Review of NOAA Fisheries
Enforcement Programs and Operations (OIG-19887), NOAA                         OIG Reviews of NOAA Fisheries
identified activities planned or already taken to improve its Office          Enforcement Programs and Operations
of Law Enforcement (OLE), along with its Office of the General
Counsel Enforcement Section (GCES), formerly known as
General Counsel for Enforcement and Litigation. In a February                 In 2009, at the request of the NOAA Administrator and
2010 memo, a March 2010 response, and several public                          with the interest of numerous members of Congress,
announcements, NOAA identified 47 immediate and long-term                     OIG began a major assessment of the policies,
activities to address OIG findings and recommendations.                       practices, and operations of NOAA’s Office of Law
                                                                              Enforcement and Office of the General Counsel
                                                                              Enforcement Section. This investigation yielded the
OIG conducted this follow-up review, the scope of which                       three 2010 reports listed below as well as two follow-
was targeted to NOAA’s action plan, to (1) provide an interim                 up reports issued during this semiannual period and
assessment of NOAA’s corrective actions, (2) determine the                    summarized here.
effectiveness of actions already taken, and (3) identify constructive
measures NOAA should consider going forward. We found that                    •	Review of NOAA Fisheries Enforcement Programs
                                                                                and Operations (OIG-19887), January 2010

•	    NOAA made progress in completing many key action plan items.     •	Review of NOAA Fisheries Enforcement Asset
•	   Regional and national priorities for OLE have not been finalized.   Forfeiture Fund (OIG-19887-1), July 2010
•	   NOAA’s placement of the compliance liaison within OLE raises
     independence concerns.                                            •	Final Report–Review of NOAA Fisheries Enforcement
•	   NOAA’s workforce analysis is one year behind schedule.              Programs and Operations (OIG-19887-2),
•	   GCES case management system data integrity issues have              September 2010
     not been resolved.
•	   OLE and GCES policies and procedures manuals need to include
     a consistent method for handling prior violation information.
•	   GCES participation in Fishery Management Council meetings
     has been limited and inconsistent.
•	   E-hotline and “Complaints and Compliments” web page effectiveness is uncertain.

OIG reviewed NOAA’s response and considered it in preparing the final report. We
also modified the draft report based on information provided by NOAA in subsequent
communications. NOAA’s response indicated general concurrence with our findings. The
response provided additional updated information summarizing the steps NOAA had taken and
plans to take to address the challenges we identified. The response also contained a clarification
of NOAA’s position on the placement of a compliance liaison under the direct supervision of the
OLE special agent in charge of the Northeast field office. OIG had no recommendations in this
report; therefore, no action plan was necessary. However, we expect to continue a dialogue with
NOAA on its progress in achieving the remaining action items.

MORE ACTION NEEDED TO IMPROVE CONTROLS IN ASSET FORFEITURE FUND
(OIG-12-019-I)

In our January 2010 and July 2010 reports, OIG addressed concerns over NOAA’s Asset
Forfeiture Fund (AFF), which contains proceeds from marine resource violations that are
expendable under the guidelines of the Magnuson-Stevens Act section 311 (e)(1). Those
reports revealed several weaknesses in NOAA’s management and internal controls over the
AFF. The July 2010 report recommended 13 ways for NOAA to improve administration and
oversight of the AFF. In response, NOAA developed specific corrective action plans and
provided us with quarterly updates on progress to implement them.
28   Office of Inspector General | Semiannual Report to Congress | March 2012




     In this follow-up review, we reviewed NOAA’s approach to defining and reporting on the
     AFF and also examined controls over AFF collections and disbursements. We found that
     NOAA lacks controls to assure that all proceeds are received and accurately recorded. Also,
     NOAA has not accurately recorded or adequately pursued the total amount owed for fines
     and penalties. We recommended that the Under Secretary of Commerce for Oceans and
     Atmosphere require the following:


     •	    OLE and GCES develop policies and procedures that ensure that payments due to the
           government are recorded accurately and in a timely manner, and implement a segregation­
           of-duties matrix identifying compatible and incompatible functions associated with the
           collection, recording, deposit, and reconciliation of fines, penalties, and forfeitures.
     •	    OLE train agents and enforcement technicians on collection procedures and policies.
     •	    GCES headquarters work with the Enforcement Section Northeast division to improve the
           timeliness of the division’s lockbox submissions.
     •	    OLE, GCES, and NOAA Finance implement a process to ensure that deposit account cases
           are periodically reviewed and that legally resolved cases are transferred from the deposit
           account or returned to a respondent in a timely manner.
     •	    OLE implement procedures to track and reconcile how Enforcement Action Reports are used
           and issued, including those issued to joint enforcement partners and the U.S. Coast Guard.
     •	    OLE evaluate the Law Enforcement Accessible Database System (LEADS) internal control
           weaknesses, develop specific protocol for recording information, and restrict LEADS user
           access to cases.
     •	    GCES develop policies and procedures to ensure that debts are recorded in the Commerce
           Business Systems (CBS) as soon as legally enforceable, which will include independent
           monitoring for amounts not yet recorded in CBS.
     •	    GCES standardize its case monitoring process and reinforce use of the JustWare system.
     •	    GCES and NOAA Finance develop policies and procedures to consistently pursue collection
           of fines and penalties in a manner that treats all respondents uniformly and in compliance
           with the Debt Collection Improvement Act of 1996.

     As required by House Report 112-169, we provided an interim status report of NOAA’s
     implementation of our recommendations (OIG-12-012-M) to the leadership of relevant House
     and Senate appropriations committees and subcommittees in December 2011.

     Breakdown of Issues by Office



                    OLE                                        GCES                  NOAA Finance
          • Duties not adequately                    • Duties not adequately     • Lacks deposit account
            segregated                                 segregated                  monitoring
          • Lacks deposit account                    • Debts not recorded        • Fails to pursue
            monitoring                                 accurately or in timely     collection of overdue
                                                       way                         fines
          • Lacks Enforcement
            Action Report (EAR)                      • Lacks deposit account
            tracking                                   monitoring
          • Law Enforcement
            Accessible Database
            System (LEADS) lacks
            data integrity controls
                                                             National Oceanic and Atmospheric Administration                29




CONGRESSIONAL TESTIMONY (OIG-11-011-T)

On November 16, 2011, the Inspector General testified about
the challenges NOAA faces in its efforts to develop and launch                “NOAA’s current constellation of
its new environmental satellites while minimizing expected data
gaps. His testimony included a brief history of the development
                                                                              polar and geostationary operational
and operation of polar and geostationary environmental satellite              environmental satellites is aging, and
systems operated by NOAA, NASA, and the Department of                         its capabilities will degrade over time.
Defense. He also described the new NOAA-NASA Joint Polar                      As a result, the risk increases for gaps
Satellite System (JPSS) partnership, and cost, scheduling,
performance, and coverage issues associated with JPSS and
                                                                              in critical satellite data.”
a predecessor satellite, the Suomi National Polar-orbiting
Partnership (NPP).                                                            IG testimony before a U.S. Senate Commerce,
                                                                              Science, and Transportation Subcommittee,
                                                                              November 16, 2011
Both NOAA and OIG, he said, have identified risks that, if not
properly mitigated, could cause further delays in NPP operational
readiness and degradation of NOAA’s weather and climate
forecasting capability. Longer-term, OIG recommends that NOAA senior management prioritize
all JPSS requirements, develop reliable cost estimates to support future funding requests,
systematically communicate planned actions and progress with decision makers, and coordinate
NOAA efforts, in case NPP does not live through its 5-year design life. The Inspector General
conveyed his interest in NOAA’s action plan to address recommendations contained in OIG’s
September 30, 2011, JPSS audit report, and his hope that NOAA finds innovative solutions to
closing the looming satellite coverage gaps.

NOAA EMPLOYEE COUNSELED AND NEW PROCEDURES INSTITUTED

In October 2011, a NOAA employee was counseled and removed from serving as a source
selection official/evaluator pending the completion of additional training. NOAA also advised that
it intended to provide appropriate training in order to strengthen the contracting capabilities of
the employee’s office. These actions were the result of our investigation into alleged violations
of the Procurement Integrity Act involving the award of a National Weather Service contract.
Our investigation established that a senior NOAA official made inappropriate disclosures to the
losing bidder before that company was notified by the proper authorities. We determined this
behavior fostered an appearance of violating the Procurement Integrity Act and also violated the
Standards of Ethical Conduct for Employees of the Executive Branch.
30   Office of Inspector General | Semiannual Report to Congress | March 2012




     NATIONAL TELECOMMUNICATIONS
     AND INFORMATION ADMINISTRATION



     The National Telecommunications and Information
     Administration serves as the executive branch’s principal advisor
     to the President on domestic and international telecommunications
     and information policy issues. NTIA manages the federal use
     of the electromagnetic spectrum, provides grants for national
     information and public broadcasting infrastructure projects, and
     performs telecommunications research and engineering. It works to
     enhance citizens’ access to cable television, telephone, and other
     telecommunications services and educates state and local governments
     and other entities on ways to use information technology and
     telecommunications more effectively.
                                                       National Telecommunications and Information Administration                  31




THIRD ANNUAL ASSESSMENT OF THE PSIC GRANT PROGRAM: NTIA AND FEMA
NEED TO IMPROVE OVERSIGHT OF PSIC GRANTS (OIG-12-008-A)

Our assessment found that neither NTIA nor the Federal Emergency Management Agency
(FEMA) adequately monitored and addressed (1) PSIC equipment purchases and operating
capability, (2) matching share issues, and (3) progress toward meeting program goals. We also
found that certain grantees with low drawdowns may be at risk of not completing their projects
by September 30, 2012. Although NTIA and FEMA intended to evaluate the success of the
PSIC program by having grantees provide evidence of improvements in interoperability at the
completion of (rather than during) each grant period, issues discovered after grant funds have
been expended will be difficult to correct, decreasing the likelihood of the program’s success.

We recommended that the Assistant Secretary for Communications and Information, in
coordination with the Assistant Administrator, FEMA Grants Program Directorate (1) implement
a plan that provides for the active monitoring of equipment and its operational capability; (2)
develop a formal document for grantees that reconciles all existing guidance on proportionality
and emphasize close monitoring to ensure that matching share requirements will be met; (3)
actively monitor and document grantee progress toward achieving program goals, including the
achievement of updated milestones for grantees that requested an extension until September
2012; and (4) provide quarterly evidence to OIG that grantees with less than 50 percent
drawdowns as of September 30, 2011, are being actively monitored through closeout.




   Public Safety Interoperable Communications Program
   The Digital Television Transition and Public Safety Act of         Management Agency (FEMA) handles the DHS responsibilities.
   2005 authorized NTIA, in consultation with the Department          PSIC program funding has been extended until expended—but
   of Homeland Security (DHS), to implement the Public Safety         not beyond September 30, 2012.
   Interoperable Communications (PSIC) program—a $1 billion
   one-time, formula-based matching grant program intended            The Implementing Recommendations of the 9/11 Commission
   to enable public safety agencies to establish interoperable        Act of 2007 (P.L. 110-53) requires OIG to conduct financial
   emergency communications systems using reallocated                 audits, over 4 years, of a representative sample of at least 25
   radio spectrum.                                                    states or territories receiving PSIC grants. The statute also
                                                                      requires OIG to annually assess the management of the program
   DHS, in cooperation with NTIA, provides grants management          and report any findings and recommendations from that annual
   services for the PSIC program; the Federal Emergency               assessment to the relevant congressional committees.
32   Office of Inspector General | Semiannual Report to Congress | March 2012




     UNITED STATES PATENT
     AND TRADEMARK OFFICE



     The United States Patent and Trademark Office administers the
     nation’s patent and trademark laws. Patents are granted and trademarks
     registered under a system intended to provide incentives to invent,
     invest in research, commercialize new technology, and draw attention
     to inventions that would otherwise go unnoticed. USPTO also collects,
     assembles, publishes, and disseminates technological information
     disclosed in patents.
                                                                      United States Patent and Trademark Office   33




FY 2011 FINANCIAL STATEMENT AUDITS (OIG-12-005-A, OIG-12-006-A)

Independent auditor KPMG LLP found that USPTO’s financial statements were fairly presented
in all material respects and in conformity with U.S. generally accepted accounting principles.
KPMG found no instances of reportable noncompliance with applicable laws, regulations,
contracts, or grant agreements and no deficiencies in internal control over financial reporting
that were considered to be a material weakness. (A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis.)

During the audit, KPMG also assessed the IT controls supporting financial management
systems. While KPMG noted significant positive steps taken to implement and maintain
effective information security practices, USPTO needs to make improvements in the areas
of configuration management and contingency planning. However, these matters were not
considered a significant deficiency. USPTO agreed with these findings and has developed
corrective action plans to address KPMG’s recommendations.

THE PATENT HOTELING PROGRAM IS SUCCEEDING AS A BUSINESS STRATEGY
(OIG-12-018-A)

USPTO offers a variety of telework options for its employees—from 1 to 5 days a week. The
largest of these is the Patent Hoteling Program (PHP), where employees work from home at
least 4 days a week and reserve office space for when they need to be present at USPTO.
Goals of PHP include reducing space and cost requirements while improving employee
retention and job satisfaction. Although considered one of the leading government telework
programs, no comprehensive and independent review of PHP’s costs and benefits had ever
been completed. Because, by law, participation in telework programs should not result in
diminished federal employee performance, we specifically looked at the productivity of PHP
participants. Also, because USPTO’s management challenges include addressing the backlog of
about 700,000 patent applications, we sought to determine if PHP can help reduce this backlog
in a cost-effective way.

We found that the average PHP participant spends 66.3 more hours a year examining patents
than does the average in-house examiner; this translates to reviewing about 3.5 more patent
applications a year than examiners not in the program. Although PHP incurs additional costs,
mainly for IT infrastructure and hoteling support services, these costs are significantly offset by
avoided real estate costs—$16.84 million by our estimation—as well as revenue generated from
the additional patent applications reviewed.

We recommended that the Under Secretary of Commerce for Intellectual Property and Director, USPTO:


•	   Conduct a more comprehensive calculation for costs and cost avoidance related to PHP in
     order to obtain more accurate estimates of the cost and benefits affiliated with this program.
•	   Work with the Department to compare best practices from PHP, which could aid telework
     programs within the rest of the Department.
•	   Ensure that internal controls are in place so that only eligible patent examiners participate in
     PHP and appropriate documentation is maintained.
34   Office of Inspector General | Semiannual Report to Congress | March 2012




     Comparison of FY 2010 Costs per Patent Examiner for PHP and Non-PHP Participants


                                                                                 First-Year      Subsequent-
                                                            Non-PHP              Difference     Year Difference
      Cost Category                   PHP
                                                           (at USPTO)           (using PHP        (using PHP
                                                                                  as base)          as base)

      Real estate, taxes,
                                     $1,075                  $9,835              -$8,760            -$8,760
      utilities
      IT setup                        1,050                                      +1,050                  n/a

      Equipmenta                      4,880                    4,255               +625                  n/a
      Virtual
                                      4,450                                      +4,500c            +4,500
      infrastructureb
      Hoteling support
                                      1,675                                      +1,675             +1,675
      servicesc
      Transit benefits                  230                    1,100                -870               -870

      ISP reimbursement                   70                                        +70                 +70

      Total                        $13,480                  $15,225              -$1,710            -$3,385

     Source: OIG analysis of USPTO data
     a Equipment includes computer, dual monitors, printer, webcam, keyboard, speakers, and miscellaneous equipment.
     b Virtual infrastructure costs are dynamic and reported on as incurred in 2010; however, USPTO is currently

       transitioning to a universal laptop program that will decrease these costs in the future.
     c Hoteling support services include telework depot, engineer, VPN, storage, and backup.
11
36   Office of Inspector General | Semiannual Report to Congress | March 2012




     AMERICAN RECOVERY
     AND REINVESTMENT ACT



     The Recovery Act—signed into law by President Barack Obama on
     February 17, 2009—has three immediate goals: (1) create new jobs
     and save existing ones, (2) spur economic activity and invest in long-
     term growth, and (3) foster unprecedented levels of transparency and
     accountability.

     Five Department of Commerce bureaus—the Census Bureau, EDA,
     NIST, NOAA, and NTIA—and OIG received $7.9 billion under the Act,
     with $1.2 billion ultimately rescinded or transferred to other agencies.
     As of March 31, 2012, the Department had obligated almost all of the
     approximately $6.7 billion remaining and had disbursed approximately
     $3.8 billion. (The disbursal amount includes funding for the now-
     completed NTIA Digital Television Converter Box Coupon Program.)
                                                                                                                           American Recovery and Reinvestment Act                      37




           COMMERCE BUREAUS’ RECOVERY ACT OBLIGATIONS AND DISBURSEMENTS
           AS OF MARCH 31, 2012

                         $4,500                                                                                                                     99%     100%


                                  $4,134
                                                                                                                                                            90%
                         $4,000                                                                                                    88%
                                                                                                               85%

                                                                                                                                                            80%
                         $3,500
                                                                             76%               76%


                                                                                                                                                            70%
                         $3,000
                                                            65%
Dollars (in Millions)




                                                                                                                                                                   Percent Disbursed
                                                                                                                                                            60%

                         $2,500

                                                                                                                                                            50%

                         $2,000
                                                                                                       Total Obligations
                                                                                                                                                            40%
                                            38%                                                        Total Disbursements
                                           $1,581
                         $1,500                                                                        Percent Disbursed

                                                                                                                                                            30%


                                                                                                                                              $1,000 $995
                         $1,000
                                                                                                                                                            20%



                          $500
                                                     $360                                                                                                   10%
                                                            $235      $249              $242                                  $231 $204
                                                                             $189              $185       $148 $126

                            $0                                                                                                                              0%
                                     NTIA              NIST        NOAA Procurment,    NIST Research         EDA           NOAA Operations,     Census
                                                    Construction    Acquisition, and    and Services                        Research, and
                                                                     Construction                                             Facilities




           OIG RECOVERY ACT OVERSIGHT, FEBRUARY 2009–MARCH 2012

           Funded by $16 million for proactive oversight of the Department’s Recovery Act programs and
           activities, OIG has been evaluating whether agencies are using Recovery Act funds efficiently
           and effectively and following up on complaints including whistleblower reprisal allegations.


                        Key Activities                                                                                                Cumulative Results

                        Published audit and evaluation reports                                                                                    17
                        Unpublished work products                                                                                                  4
                        Audits/evaluations in progress                                                                                             5
                        OIG recommendations for action, correction, or improvement                                                                63
                        Recommendations implemented to take corrective action by making
                        improvements, reducing risk, or preventing waste                                                                          29

                        Investigations completed                                                                                                    3
                        Investigations in progress                                                                                                  6
                        Whistleblower reprisal allegations received                                                                                 2
                        Whistleblower reprisal allegations accepted                                                                                 2
                        Debarments and corporate compliance agreements implemented                                                                  0
                        Proactive training and outreach sessions held                                                                             128
                        Individuals trained                                                                                                     6,474
                        Hours of training provided                                                                                              8,109
38                             Office of Inspector General | Semiannual Report to Congress | March 2012




                                                                      NTIA HAS AN ESTABLISHED FOUNDATION TO
The Recovery Act and Broadband                                        OVERSEE BTOP AWARDS, BUT BETTER EXECUTION OF
                                                                      MONITORING IS NEEDED (OIG-12-013-A)
The Recovery Act gave $4.7 billion to NTIA to
establish BTOP, a competitive grant program                           NTIA’s FY 2011 BTOP Monitoring and Assessment Plan established
intended to provide funds for deploying broadband                     guiding principles for monitoring and assessing BTOP awards. The
infrastructure in the United States in order to enhance               plan explains the processes for establishing and revising monitoring
broadband capacity at public computer centers,                        levels—as well as for ensuring improved project performance and
improve access to broadband services for public                       compliance with grant terms and conditions—and the tools used to
safety agencies, promote sustainable broadband                        monitor the award. Our review identified improvements to strengthen
adoption projects, and develop an interactive map                     (1) monitoring tools and the effectiveness of monitoring-level
showing broadband capabilities and availability.                      adjustments, (2) the recipient match review process, (3) tracking
                                                                      projects at risk of meeting the 3-year completion deadline and initiating
                                                                      a formal trend analysis, and (4) maximizing monitoring resources.

                              We recommended that NTIA


                              •	   strengthen the federal program officers’ monitoring efforts,
                              •	   verify source documentation into its current monitoring efforts,
                              •	   strengthen its monitoring tools’ internal control capabilities,
                              •	   prepare recipient match documentation guidance for federal program officer use during site visits,
                              •	   work with recipients at risk of not meeting award progress and completion requirements and
                                   develop an action plan and alternative strategies for those awards that will not satisfy award terms,
                              •	   incorporate continuous trend analysis activities into its award monitoring process, and
                              •	   identify oversight strategies for different funding levels.

                              Overview of BTOP Monitoring Model


                                                                                          Criteria
                                 Federal policy (e.g., Department of Commerce grants                 NTIA creates policies and procedures based on
                                manual) and regulations (e.g., Recovery Act, Notices of              established laws and regulations
                                                   Funds Availability)



                                                                              Data and Report Reviews
                                    Various data (e.g., performance progress report,                 NTIA bases templates on procedural requirements and
                                      financial progress report, baseline reports)                   collects data, which it transmits and stores in systems
                                                                                                      that interface with Grants Management Information
                                                                                                                   System and Grants Online



                                                                                 Monitoring Activities
                                      Report reviews, desk reviews, and site visits                   NTIA staff review reports and conduct desk reviews
                                                                                                        and site visits to gather recipient financial and
                                                                                                                    performance information



                                                                                      Results/Findings
                                                  Final site visit report                             NTIA staff generates reports based on observations
                                                                                                                made during recipient site visits




                                                                            Monitoring Level Adjustment
                                               Adjustment or action plan                             NTIA adjusts monitoring levels, based on the results of
                                                                                                      site visits, and issues any needed corrective actions
                                                                     American Recovery and Reinvestment Act   39




MISREPRESENTATIONS REGARDING PROJECT READINESS, GOVERNANCE
STRUCTURE PUT AT RISK THE SUCCESS OF THE BAYWEB PROJECT (OIG-12-016-M)

In November 2010, a San Francisco Bay–area county executive requested an investigation of the
nearly $50.6 million BTOP grant awarded to Motorola Solutions, Inc. (formerly Motorola, Inc.) for
the project known as the San Francisco Bay Area Wireless Enhanced Broadband (BayWEB).
The letter claimed that the application contained misrepresentations and misinformation—and
that the selection of Motorola as a grant applicant represented a conflict of interest. Allegations
regarding the award had been previously sent to NTIA in September 2010, before the award was
accepted by Motorola. In December 2010, OIG initiated a review of NTIA’s response to concerns
expressed on the project.

Our May 2011 review (OIG-11-024-I) contained recommendations for improving NTIA’s
procedures for handling complaints. Our report also noted that we would undertake further
review of the complaint to examine issues that were outside the scope of our initial review—and
that NTIA declined to investigate further, because it viewed these issues as exceeding the scope
of its program responsibilities.

Our follow-on review (OIG-12-016-M) identified several areas of concern regarding the
award to Motorola that revealed misrepresentations in the application and deficiencies in the
due diligence—and also highlighted ongoing challenges facing the administration of BTOP.
Specifically, the application, not attributable directly to the grantee in this case, misrepresented
information regarding the status of a regional governance structure, the readiness of sites for
broadband infrastructure, and the region’s authority to use the dedicated broadband spectrum.
Although these concerns may not mandate termination of the grant, they have contributed to
delays in the project that put at risk the successful completion of the project and the fulfillment
of the grant’s purpose. The project, which no longer includes a public access component,
continues to face challenges. As of March 31, 2012, progress has been limited, and several key
issues must be addressed if the project is to be completed on schedule. For example, under
recently enacted legislation, an independent authority established within NTIA will oversee the
development of a nationwide public safety broadband network. The technical requirements and
standards adopted under that program may affect BayWEB’s development. In addition, the
project still needs to acquire access to existing network infrastructure and equipment.

OVERSIGHT ACTIVITIES OF NIST’S RECOVERY ACT CONSTRUCTION GRANT
AWARDS ARE GENERALLY EFFECTIVE BUT NEED IMPROVEMENTS (OIG-12-020-A)

The Recovery Act appropriated $360 million to NIST to construct research facilities, including
$180 million in competitive grants for the construction of research science buildings. By
January 2010, NIST had awarded more than $179 million in Recovery Act funds to support
the construction of new research science facilities at 15 universities and 1 nonprofit research
organization. With grant recipients’ matching shares, the 16 projects were intended to launch
more than $400 million in new laboratory construction projects in 2009 and 2010.

Although NIST has established a generally effective construction grants program, program
processes are still under development, and NIST risks not having appropriate and adequate
monitoring processes in place. We found that inadequate internal controls led to award
administration and oversight concerns, such as releasing funds without securing the government’s
interest first. We also found violations of Recovery Act provisions, such as granting reprieves to
use non-U.S.-made devices without official waivers. Finally, most of the 16 Recovery Act-funded
construction projects are in jeopardy of not being completed on time. Further, five of these projects
require immediate management attention because they are either scheduled for completion after,
40                             Office of Inspector General | Semiannual Report to Congress | March 2012




                               or at risk of being extended beyond, September 30, 2013—the new OMB deadline for using
                               Recovery Act funds. Our audit of postaward administration includes recommendations to the
                               Under Secretary of Commerce for Standards and Technology that he direct


                               •	   The NIST grants office to address federal fund drawdown issues, as well as the review and
                                    reconciliation of all required reports in official grant files.
                               •	   The NIST program office to (a) develop plans to address projects at risk of missing the
                                    September 30, 2013, deadline; (b) require other grantees to meet grant-specified deadlines
                                    and/or submit proper extension requests to NIST; and (c) require grantees to submit all
                                    extension request elements before finalizing its decisions.
                               •	   The program office to strengthen its construction grants procedures manual and develop
                                    a recipient handbook—as well as direct the grants office to instruct staff on the official role
                                    of the paper file used with their grants management system as it transitions to a new grants
                                    system (and strengthen internal controls on official file access).
                               •	   The program office to ensure Buy American compliance—and direct the grants office to
                                    establish a firewall to prevent the use of Recovery Act funds (should they become available)
                                    on non–Recovery Act activities.




National Institute of Standards and Technology
The National institute of Standards and Technology promotes               Baldrige Performance Excellence Program—Promotes
U.S. innovation and industrial competitiveness by advancing               performance excellence among U.S. manufacturers, service
measurement science, standards, and technology in ways that               companies, educational institutions, health care providers, and
enhance economic security and improve our quality of life. NIST           nonprofit organizations through outreach programs and the
carries out its mission via four cooperative programs.                    annual Malcolm Baldrige National Quality Award.


NIST Laboratories—Conduct research that advances the                      Technology Innovation Program—Provides cost-shared
nation’s technology infrastructure and is needed by U.S. industry         awards to industry, universities, and consortia for research
to continually improve products and services.                             on potentially revolutionary technologies that address critical
                                                                          national and societal needs.
Hollings Manufacturing Extension Partnership—Works
with small- and mid-sized U.S. manufacturers through a
nationwide network of 350 field offices to help them create and
retain jobs, expand into new markets and new products, increase
profits, and save time and money.
                                                                     American Recovery and Reinvestment Act               41




CONGRESSIONAL TESTIMONY (OIG-12-012-T)
                                                                                    “More than two and a half years
On November 30, 2011, the Inspector General testified about OIG’s                   after passage of the Recovery Act,
oversight of the Department’s implementation of science, technology,
                                                                                    the twin challenges of setting up
and other programs funded through the $7.9 billion in Recovery Act
funding that the Department initially received. (Later, $1.2 billion was            new programs and the long lead
rescinded or transferred to other agencies.)                                        time to complete construction
                                                                                    projects have resulted in much of
He noted that among the issues the Department encountered in                        the Department’s spending being
spending these funds were (1) slower spending that challenged
                                                                                    incomplete.”
agencies’ science, technology, and business development initiatives
aimed at job creation; (2) newer programs that experienced slower
disbursements than existing ones; and (3) the risk of not completing                IG testimony before a U.S. House of
Recovery Act projects on time. OIG’s oversight activities identified                Representatives Science, Space, and
the value of up-front planning and timely data analysis by agencies                 Technology Subcommittee,
as important “lessons learned.” The Inspector General’s statement                   November 30, 2011
included an appendix listing nearly 30 completed, in-progress,
and planned Recovery Act–related audits and reviews, as well as
congressional testimony undertaken since March 2009.
42   Office of Inspector General | Semiannual Report to Congress | March 2012




     STATISTICAL DATA


     The Inspector General Act Amendments of 1988 require us to present the statistical data
     contained in Tables 1–8.


      TABLES	                                                                                 Page

      1. Office of Investigations Statistical Highlights for This Period	                      42


      2. Audit Resolution and Follow-up	                                                       43


      3. Audit and Evaluation Statistical Highlights for This Period	                          44


      4. Audits with Questioned Costs	                                                         45


      5. Audits with Recommendations That Funds Be Put to Better Use	                          45


      6. Report Types for This Period	                                                         46


          6-a. Performance Audits                                                              47


          6-b. Financial Statement Audits                                                      48


          6-c. Evaluations and Inspections                                                     48


      7. Single Audit and Program-Specific Audits	                                             49


          7-a. Processed Reports with Audit Findings                                           49


      8. Audits Unresolved for More Than 6 Months	                                             50



     TABLE 1. OFFICE OF INVESTIGATIONS STATISTICAL HIGHLIGHTS FOR THIS PERIOD

     Investigative activities cover investigations opened and closed by OIG; arrests by OIG
     agents; indictments and other criminal charges filed against individuals or entities as a result of
     OIG investigations; convictions secured at trial or by guilty plea as a result of OIG investigations;
     and fines, restitution, and all other forms of financial recoveries achieved by OIG as a result of
     investigative action.

     Allegations processed presents the number of complaints from employees, stakeholders,
     and the general public that were handled by our Complaint Intake Unit. Of these, some resulted
     in the opening of investigations; others were referred to Commerce bureaus for internal
     administrative follow-up. Others were unrelated to Commerce activities or did not provide
     sufficient information for any investigative follow-up and so were not accepted for investigation
     or referral. Fines and other financial recoveries refer only to agreements that a judge accepted.
                                                                                                         Statistical Data   43




                                             Investigative Activities

Investigations opened                                                                              21

Investigations closed                                                                              26

Arrests                                                                                              0

Indictments/Informations                                                                             4

Convictions                                                                                          6

Fines and other financial recoveries                                                  $50,783,766a

                                             Allegations Processed

Hotline complaints                                                                                625

Total complaints, all sources                                                                     625

Referrals to bureaus or non-Commerce agencies                                                     310

Evaluated but not accepted for investigation or referral                                          294

a This  total is derived solely from federal multi-agency investigations in which OIG secondarily participated (e.g.,
  antitrust cases). It does not reflect actual monetary recoveries for the Department of Commerce.



TABLE 2. AUDIT RESOLUTION AND FOLLOW-UP

The Inspector General Act Amendments of 1988 require us to present (in this report) audits
issued before the beginning of the reporting period (October 1, 2011) for which no management
decision had been made by the end of the period (March 31, 2012). Six audit reports remain
unresolved for this reporting period (see page 50).

Audit resolution is the process by which the Department of Commerce reaches an effective
management decision in response to audit reports. Management decision refers to
management’s evaluation of the findings and recommendations included in the audit report and
the issuance of a final decision by management concerning its response.

Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures
for management to request a modification to an approved audit action plan or for a financial
assistance recipient to appeal an audit resolution determination. The following table summarizes
modification and appeal activity during the reporting period.


Report Category                                             Modifications                        Appeals

Actions pending (October 1, 2011)                                   0                                1

Submissions                                                         0                                1

Decisions                                                           0                                1

Actions pending (March 31, 2012)                                    0                                1
44   Office of Inspector General | Semiannual Report to Congress | March 2012




     TABLE 3. AUDIT AND EVALUATION STATISTICAL HIGHLIGHTS FOR THIS PERIOD

     Audits comply with standards established by the Comptroller General of the United States for
     audits of federal establishments, organizations, programs, activities, and functions.

     Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an
     audit or a criminal investigation.


         Questioned costsa                                                                $ 4,509,669

         Value of audit recommendations that funds be put to better useb                      886,337

         Value of audit recommendations agreed to by managementc                           17,477,647


     These amounts include costs questioned by state and local government auditors or independent
     public accountants.

     a   Questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of a
         provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
         document governing the expenditure of funds; (2) a finding that, at the time of the audit, such
         cost is not supported by adequate documentation; or (3) a finding that an expenditure of funds
         for the intended purpose is unnecessary or unreasonable.

     b   Value of audit recommendations that funds be put to better use: This results from an
         OIG recommendation that funds could be used more efficiently if Commerce management
         took action to implement and complete the recommendation. Such actions may include (1)
         reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
         interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred
         by implementing recommended improvements related to Commerce, a contractor, or a grantee;
         (5) avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant
         agreements; or (6) any other savings specifically identified.

     c   Value of audit recommendations agreed to by management: This is the sum of (1)
         disallowed costs and (2) funds put to better use that are agreed to by management during
         resolution. Disallowed costs are the amount of costs that were questioned by the auditors
         or the agency action official and subsequently determined—during audit resolution, or during
         negotiations by a contracting officer—not to be charged to the government.
                                                                                                         Statistical Data   45




TABLE 4. AUDITS WITH QUESTIONED COSTS

See Table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not
supported by adequate documentation at the time of the audit. Questioned costs include
unsupported costs.


                                                                                 Questioned          Unsupported
 Report Category	                                              Number
                                                                                   Costs                Costs

 A.	      Reports for which no management
          decision had been made by the                            12           $38,241,279          $17,364,511
          beginning of the reporting period
 B.	      Reports issued during the reporting
                                                                   7                4,509,669           3,900,000
          period

 Total reports (A+B) requiring a management
                                                                   19             42,750,948          21,264,511
 decision during the perioda

 C.	      Reports for which a management
          decision was made during the reporting                   7              18,049,019          16,445,451
          periodb
          i. Value of disallowed costs	                                           17,386,692          16,427,853
          ii. Value of costs not disallowed 	                                         893,827               17,598
 D.	      Reports for which no management
          decision had been made by the end of                     12             24,701,929            4,819,060
          the reporting period

a Two  audit reports included in this table are also included among reports with recommendations that funds be put
  to better use (see Table 5). However, the dollar amounts do not overlap.
b In Category C, lines i and ii do not always equal the total line in C because resolution may result in values greater

  than the original recommendations.



TABLE 5. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

See Table 3 for a definition of “recommendation that funds be put to better use.”



 Report Category	                                                             Number                    Value

 A.	      Reports for which no management decision had been
                                                                                  3                 $1,262,853
          made by the beginning of the reporting period
 B.	      Reports issued during the reporting period                              2                     886,337

 Total reports (A+B) requiring a management decision during
                                                                                  5                   2,149,190
 the perioda

 C.	      Reports for which a management decision was made
                                                                                  2                     169,358
          during the reporting period
          i. Value of recommendations agreed to by management	                                           90,955
          ii. Value of recommendations not agreed to by
                                                                                                         78,403
          management
 D.	      Reports for which no management decision had been
                                                                                  3                   1,979,832
          made by the end of the reporting period

a Two
    audit reports included in this table are also included among reports with questioned costs (see Table 4).
 However, the dollar amounts do not overlap.
46   Office of Inspector General | Semiannual Report to Congress | March 2012




     TABLE 6. REPORT TYPES FOR THIS PERIOD

     Performance audits are engagements that provide assurance or conclusions based on
     an evaluation of sufficient, appropriate evidence against stated criteria, such as specific
     requirements, measures, or defined business practices. Performance audits provide objective
     analysis so that management, and those charged with governance and oversight can use the
     information to improve program performance and operations, reduce costs, facilitate decision
     making by parties with responsibility to oversee or initiate corrective action, and contribute to
     public accountability.

     Financial statement audits provide reasonable assurance through an opinion (or disclaimer
     of an opinion) about whether an entity’s financial statements are presented fairly in all material
     respects in conformity with generally accepted accounting principles, or with a comprehensive
     basis of accounting other than these principles.

     Evaluations and inspections include evaluations, inquiries, and similar types of reviews that
     do not constitute an audit or a criminal investigation. An inspection is defined as a process that
     evaluates, reviews, studies, or analyzes the programs and activities of a department or agency to
     provide information to managers for decision making; make recommendations for improvements
     to programs, policies, or procedures; and identify where administrative action may be necessary.


      Type                                           Number of Reports           Table Number

      Performance audits                                         8                  Table 6-a

      Financial statement audits                                 5                  Table 6-b

      Evaluations and inspections                                6                  Table 6-c

      Total                                                     19
                                                                                   Statistical Data   47




TABLE 6-A. PERFORMANCE AUDITS


                                                   Report         Date       Funds to Be Put
Report Title
                                                   Number        Issued       to Better Use

National Oceanic and Atmospheric Administration

Oversight Activities of NIST’s Recovery Act
Construction Grant Awards Are Generally          OIG-12-020-A   02.14.2012         0
Effective but Need Improvements

National Telecommunications and Information Administration

Third Annual Assessment of the Public Safety
                                                 OIG-12-008-A   11.10.2011         0
Interoperable Communications Grant Program

NTIA Has an Established Foundation to
Oversee BTOP Awards, But Better Execution        OIG-12-013-A   11.17.2011         0
of Monitoring is Needed

Office of the Secretary

Commerce’s Office of Acquisition Management
Must Continue to Improve Its Ongoing Oversight   OIG-12-001-A   10.06.2011         0
of Acquisition Savings Initiatives

Improvements Are Needed For Effective Web
                                                 OIG-12-002-A   10.21.2011         0
Security Management

FY 2011 Federal Information Security
Management Act Audit: More Work Needed           OIG-12-007-A   11.10.2011         0
to Strengthen IT Security Department-Wide


Further Actions Needed to Enhance
                                                 OIG-12-015-A   12.21.2011         0
Commerce’s Acquisition Human Capital Plan


U.S. Patent and Trademark Office

The Patent Hoteling Program Is Succeeding
                                                 OIG-12-018-A   02.01.2012         0
as a Business Strategy
48                             Office of Inspector General | Semiannual Report to Congress | March 2012




                               TABLE 6-B. FINANCIAL STATEMENT AUDITS

                                                                                        Report              Date           Funds to Be Put
                                Report Title
                                                                                        Number             Issued           to Better Use

                                Office of the Secretary

                                FY 2011 Financial Statement Audit:
                                Assessment of Information Technology
                                                                                     OIG-12-004-A         11.01.2011             0
                                Controls Supporting Financial
                                Management Systems

                                FY 2011 Consolidated Financial
                                                                                     OIG-12-009-A         11.14.2011             0
                                Statement Audit

                                FY 2011 Special-Purpose Financial
                                                                                     OIG-12-010-A         11.15.2011             0
                                Statements

                                U.S. Patent and Trademark Office

                                FY 2011 Financial Statement Audit:
                                Assessment of Information Technology
                                                                                     OIG-12-005-A         11.01.2011             0
                                Controls Supporting Financial
                                Management Systems

                                FY 2011 Financial Statement Audit                    OIG-12-006-A         11.09.2011             0




TABLE 6-C. EVALUATIONS AND INSPECTIONS

                                                                                           Funds to
                                             Report                   Date                                  Amount             Amount
 Report Title                                                                             Be Put to
                                             Number                  Issued                                Questioned        Unsupported
                                                                                          Better Use
 National Oceanic and Atmospheric Administration

 Follow-up Review of NOAA
 Fisheries Enforcement Programs         OIG-12-017-I               01.31.2012                        0                 0               0
 and Operations

 More Action Needed to Improve
                                        OIG-12-019-I               02.08.2012             $871,000         $3,900,000         $3,900,000
 Controls in Asset Forfeiture Fund

 National Telecommunications and Information Administration

 Misrepresentations Regarding Project
 Readiness, Governance Put at Risk      OIG-12-016-M               01.10.2012                        0                 0               0
 the Success of the BayWEB Project

 Office of the Secretary

 Top Management Challenges Facing
                                        OIG-12-003-I               10.24.2011                        0                 0               0
 the Department of Commerce

 Single Audit Results for Calendar
                                        OIG-12-021-M               02.13.2012                        0                 0               0
 Year 2011

 FY 2011 Compliance with Improper
                                        OIG-12-022-M               03.15.2012                        0                 0               0
 Payment Requirements
                                                                                                       Statistical Data                  49




TABLE 7. SINGLE AUDIT AND PROGRAM-SPECIFIC AUDITS

OIG reviewed and accepted 186 audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs,
recommendations that funds be put to better use, and/or nonfinancial recommendations are
listed in Table 7-a.


Agency                                                                                    Audits

Economic Development Administration                                                         51

International Trade Administration                                                           2

National Institute of Standards and Technology*                                             44

National Oceanic and Atmospheric Administration                                             18

National Telecommunications and Information Administration*                                 48

Multi-bureau                                                                                20

No Commerce expenditures                                                                     3

Total                                                                                      186

* Includes 37 program-specific audits for NIST and 39 program-specific audits for NTIA.


TABLE 7-A. PROCESSED REPORTS WITH MATERIAL AUDIT FINDINGS


                                                 Report                 Date        Funds to Be Put              Amount         Amount
 Report Title
                                                 Number                Issued        to Better Use              Questioned    Unsupported

 Economic Development Administration
 South Central Tennessee
                                          ATL-09999-12-4398           03.02.12                     0            $283,567             0
 Development District
 National Institute of Standards and Technology
 South Carolina Manufacturing
                                          ATL-09999-12-3959           12.12.11                     0                      0          0
 Extension Partnership
 South Carolina Manufacturing
                                          ATL-09999-12-3962           12.12.11                     0                      0          0
 Extension Partnership
 Anasys Instruments Corporation           ATL-09999-12-4110           02.22.12                     0              118,809            0

 SimQuest LLC                             ATL-09999-12-4263           02.22.12             15,337                         0          0

 A 123 Systems Inc.                       ATL-09999-12-4213           03.29.12                     0                27,213           0

 Ebert Composites Corporation             ATL-09999-12-4269           03.29.12                     0              109,190            0

 Pixelligent Technologies LLC             ATL-09999-12-4196           03.29.12                     0                38,387           0

 National Oceanic and Atmospheric Administration
 Virgin Islands Resource
 Conservation & Development               ATL-09999-12-4355           02.22.12                     0                      0          0
 Council, Inc.
 National Telecommunications and Information Administration

 One Economy Corporation, DC              ATL-09999-12-4328           11.23.11                     0                      0          0

 Vermont Telephone Company, Inc.          ATL-09999-12-4312           02.28.12                     0                32,503           0
50   Office of Inspector General | Semiannual Report to Congress | March 2012




     TABLE 8. AUDITS UNRESOLVED FOR MORE THAN 6 MONTHS


      Census Bureau                      Computer & High Tech Management, Inc.
                                         In our September 2005 Semiannual Report, we reported the results of
                                         audits of 2 of the 21 task orders for IT services that Computer & High
                                         Tech Management, Inc., was providing to Census. We sought to determine
                                         whether the firm had complied with contract terms and conditions
                                         and federal regulations and had billed Census for work performed in
                                         accordance with specifications of the task order. We found that the firm
                                         failed to comply with numerous contract and federal requirements, which
                                         caused us to question more than $10.7 million in direct labor and other
                                         reimbursable costs. We have suspended audit resolution on this contract
                                         audit pursuant to an agreement with Census.


      National Institute                 Manufacturing Extension Partnership Program
      of Standards
                                         NIST has not reached resolution on findings and questioned costs
      and Technology
                                         identified in OIG audit reports of the Hollings Manufacturing Extension
                                         Partnership (MEP) program in three states. We issued our audit reports
                                         covering the Massachusetts and Florida MEPs in March 2009 and our
                                         audit report covering California Manufacturing Technology Consulting in
                                         July 2010. We have reported the findings and questioned costs contained
                                         in these reports as unresolved in previous Semiannual Reports. NIST
                                         has been unable to review the associated resolution proposals due to
                                         insufficient staff in its Grants and Agreements Management Division and
                                         intends to resolve the three OIG MEP audits by May 31, 2012 (ATL­
                                         18568, DEN-18135, DEN-18572).


      National Oceanic                   Alaska Eskimo Whaling Commission
      and Atmospheric
                                         As reported in our March 2009 Semiannual Report, a single audit review
      Administration
                                         of this NOAA grant questioned costs totaling $66,353 in expenditures
                                         that were not adequately documented. We have suspended audit
                                         resolution on this grant audit pursuant to an agreement with NOAA (ATL­
                                         09999-8-3238).
11
52   Office of Inspector General | Semiannual Report to Congress | March 2012




     REPORTING REQUIREMENTS


     The Inspector General Act of 1978, as amended, specifies reporting requirements for
     semiannual reports. The requirements are listed below and indexed to the applicable pages of
     this report.


      Section                     Topic                                                       Page

      4(a)(2)                     Review of Legislation and Regulations                       52

      5(a)(1)                     Significant Problems, Abuses, and Deficiencies              16-41

      5(a)(2)                     Significant Recommendations for Corrective Action           16-41

      5(a)(3)                     Prior Significant Recommendations Unimplemented             52

      5(a)(4)                     Matters Referred to Prosecutorial Authorities               43

      5(a)(5) and 6(b)(2)         Information or Assistance Refused                           53

      5(a)(6)                     Listing of Audit Reports                                    46-48

      5(a)(7)                     Summary of Significant Reports                              16-41

      5(a)(8)                     Audit Reports—Questioned Costs                              45

      5(a)(9)                     Audit Reports—Funds to Be Put to Better Use                 45

      5(a)(10)                    Prior Audit Reports Unresolved                              53

      5(a)(11)                    Significant Revised Management Decisions                    53

      5(a)(12)                    Significant Management Decisions with Which OIG Disagreed   53

      5(a)(13)                    Results of Peer Review                                      53


     SECTION 4(a)(2): REVIEW OF LEGISLATION AND REGULATIONS

     This section requires the inspector general of each agency to review existing and proposed
     legislation and regulations relating to that agency’s programs and operations. Based on this
     review, the inspector general is required to make recommendations in the semiannual report
     concerning the impact of such legislation or regulations on (1) the economy and efficiency of
     the management of programs and operations administered or financed by the agency or (2)
     the prevention and detection of fraud and abuse in those programs and operations. Comments
     concerning legislative and regulatory initiatives affecting Commerce programs are discussed, as
     appropriate, in relevant sections of the report.

     SECTION 5(a)(3): PRIOR SIGNIFICANT RECOMMENDATIONS UNIMPLEMENTED

     This section requires identification of each significant recommendation described in previous
     semiannual reports for which corrective action has not been completed. Section 5(b) requires
     that the Secretary transmit to Congress statistical tables showing the number and value of audit
     reports for which no final action has been taken, plus an explanation of why recommended action
     has not occurred, except when the management decision was made within the preceding year.
     However, information on the status of any audit recommendations can be obtained through OIG
     upon request.
                                                                                 Reporting Requirements   53




SECTIONS 5(a)(5) AND 6(b)(2): INFORMATION OR ASSISTANCE REFUSED

These sections require a summary of each report to the Secretary when access, information,
or assistance has been unreasonably refused or not provided. There were no reports to the
Secretary during this semiannual period.

SECTION 5(a)(10): PRIOR AUDIT REPORTS UNRESOLVED

This section requires (1) a summary of each audit report issued before the beginning of the
reporting period for which no management decision has been made by the end of the reporting
period (including the date and title of each such report); (2) an explanation of why a decision has
not been made; and (3) a statement concerning the desired timetable for delivering a decision
on each such report. There are one NOAA, three NIST, and two Census reports more than 6
months old for which no management decision has been made.

SECTION 5(a)(11): SIGNIFICANT REVISED MANAGEMENT DECISIONS

This section requires an explanation of the reasons for any significant revision to a management
decision made during the reporting period. Department Administrative Order 213-5, Audit
Resolution and Follow-up, provides procedures for revising a management decision. For
financial assistance audits, OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient. There was one appeal this period.

SECTION 5(a)(12): SIGNIFICANT MANAGEMENT DECISIONS WITH WHICH OIG
DISAGREED

This section requires information concerning any significant management decision with which
the inspector general disagrees. Department Administrative Order 213-5 provides procedures
for elevating unresolved audit recommendations to higher levels of Department and OIG
management, including their consideration by an Audit Resolution Council. During this period, no
audit issues were referred.

SECTION 5(a)(13): RESULTS OF PEER REVIEW

The most recent peer review of the Office of Audit and Evaluation was conducted in 2009 by
the Federal Deposit Insurance Corporation’s (FDIC) Office of Inspector General. FDIC OIG’s
System Review Report of our audit operations is available on our website. We received a pass
rating, the highest available rating. We have implemented all of FDIC OIG’s recommendations
for process and policy improvements.

In 2009, we conducted our latest peer review, which examined the Small Business
Administration (SBA) OIG’s audit operations. SBA’s OIG has informed us that it implemented
the recommendation we made in our review.

The most recent peer review of the Office of Investigations was conducted in October 2011
by the Office of Personnel Management’s OIG. The final report on the peer review is expected
during the next semiannual period.
54                     Office of Inspector General | Semiannual Report to Congress | March 2012




ACRONYMS AND ABBREVIATIONS



AHCP     Acquisition Human Capital Plan                               IT                  information technology

AFF      Asset Forfeiture Fund                                        ITA                 International Trade Administration

ATP      Advanced Technology Program                                  JPSS                Joint Polar Satellite System

BayWEB   San Francisco Bay Area Wireless                              LEADS               Law Enforcement Accessible Database
         Enhanced Broadband                                                               System

BEA      Bureau of Economic Analysis                                  MAF/TIGER Master Address File/Topologically
                                                                                Integrated Geographic Encoding and
BIS      Bureau of Industry and Security                                        Referencing
BPAI     Board of Patent Appeals and                                  MEP                 Manufacturing Extension Partnership
         Interferences (USPTO)
                                                                      NIST                National Institute of Standards and
BTOP     Broadband Technology Opportunities                                               Technology
         Program
                                                                      NOAA                National Oceanic and Atmospheric
CBS      Commerce Business Systems                                                        Administration
CS       Commercial Service (ITA)                                     NOFA                Notice of Funds Availability
CWIP     construction work in progress                                NPP                 National Polar-orbiting Partnership
DHS      Department of Homeland Security                              NTIA                National Telecommunications and
                                                                                          Information Administration
DOJ      Department of Justice
                                                                      OAM                 Office of Acquisition Management
EDA      Economic Development Administration
                                                                                          (Commerce)
ESA      Economics and Statistics Administration
                                                                      OIG                 Office of Inspector General
FDIC     Federal Deposit Insurance Corporation
                                                                      OLE                 Office of Law Enforcement (NOAA)
FEMA     Federal Emergency Management Agency
                                                                      OMB                 Office of Management and Budget
FISMA    Federal Information Security
                                                                      OPM                 Office of Personnel Management
         Management Act of 2002
                                                                      PHP                 Patent Hoteling Program
FMC      Fishery Management Council (NOAA)
                                                                      PSIC                Public Safety Interoperable
FY       fiscal year
                                                                                          Communications
GCES     Office of the General Counsel
                                                                      SBA                 Small Business Administration
         Enforcement Section (NOAA)
                                                                      T&M/LH              Time-and-Materials and Labor-Hour
GOES     Geostationary Operational Environmental
         Satellite                                                    TAAC                Trade Adjustment Assistance Center
IPERA    Improper Payments Elimination and                            USEAC               U.S. Export Assistance Centers
         Recovery Act of 2020
                                                                      USPTO               U.S. Patent and Trademark Office
IPIA     Improper Payments Information Act of
         2012
U.S. Department of Commerce
Office of Inspector General
1401 Constitution Avenue, NW
Washington, DC 20230

www.oig.doc.gov




                         OUR MISSION

                         To improve the programs and operations of the
                         Department of Commerce through independent
                         and objective oversight.
